           U.S. Department of
                                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:
            ACTION: OIG Investigation − Alleged Cover-up                               Date:    February 14, 2005
            of Operational Errors at DFW TRACON

  From:     Kenneth M. Mead                                                         Reply to
                                                                                    Attn of:
            Inspector General

    To:     The Secretary

            Presented herein are the results of our investigation concerning alleged management
            cover-up of air traffic control operational errors and deviations at the Dallas/Fort
            Worth (DFW) Terminal Radar Approach Control (TRACON) facility. Operational
            errors, which occur when an air traffic controller allows aircraft to come too close
            together, can pose very serious safety risks and are critical indicators of the safety of
            the Nation’s air traffic control system.

            You requested that we investigate this matter pursuant to allegations raised by Anne
            Whiteman, presently a DFW Control Tower Supervisor, which were referred to you
            for investigation by the U.S. Office of Special Counsel (OSC) in the attached
            correspondence. Specifically, OSC referred Ms. Whiteman’s allegations that FAA
            managers at the DFW TRACON routinely covered-up operational errors and
            deviations 1 by not properly investigating and reporting them in accordance with
            FAA policy. Ms. Whiteman cited two specific incidents in her complaint that she
            maintained were previously unreported operational errors.

            In her filing with OSC, Ms. Whiteman asserted that because of her efforts to expose
            this improper practice, she has been subjected to reprisal by her superiors and
            harassment by her co-workers. Since filing her complaint with OSC, FAA has
            promoted Ms. Whiteman to the supervisory position of DFW Control Tower
            Supervisor. Notwithstanding, OSC, which has principal statutory responsibility for


       1
         An operational deviation occurs when an aircraft in airspace controlled by one air traffic controller encroaches
       upon, or flies into, airspace assigned to another controller without proper coordination. For purposes of
       simplicity in reporting, hereinafter, the term “operational errors” includes operational deviations.

       Report No. CC-2004-067
                                                                                                                    2

    investigating whistleblower reprisal claims, has opened an investigation into
    Ms. Whiteman’s complaint of unlawful reprisal.

    Due to the apparent safety implications, OSC referred Ms. Whiteman’s allegations
    of cover-up to you for investigation and response to OSC. Under its statutory
    procedure, OSC, while directly investigating alleged whistleblower reprisal, refers
    complainant allegations of a public health or safety nature to Federal agencies for
    investigation and appropriate corrective action.

    By memorandum, you delegated to our office responsibility for investigating the
    allegations contained in the referral. Procedurally, if you accept the results of our
    investigation, we recommend that you transmit this report to the Special Counsel.

    Executive Summary

    In brief, it took whistleblowing by Ms. Whiteman and our probe to expose a 7-year
    management practice at this TRACON of improperly investigating—and, therefore,
    underreporting—operational errors. More specifically, beginning in about 1996,
    and contrary to FAA-wide policy, the then-TRACON manager (now retired)
    implemented his own policy that stifled appropriate use of simple and reliable
    “playback tools” 2 to investigate suspected operational errors, instead relying on the
    word of controllers as to whether they committed errors. The fact that this improper
    practice went undetected for many years raises questions as to the efficacy of
    management oversight performed by FAA’s Southwest Region, as well as
    headquarters elements.

    The underreporting of operational errors caused by this local policy is significantly
    evident in the following: Prior to our investigation, in the first 6 months of
    Calendar Year 2004, the TRACON reported just 2 operational errors. After
    instituting appropriate use of playback tools in June 2004 (as a result of our
    investigation), the TRACON reported 36 confirmed operational errors during the
    next 6 months ending December 2004. While none of these 36 operational errors
    were classified as high severity, 28 were rated moderate severity 3 . (For example,
    FAA classified as moderate severity an operational error occurring at a TRACON
    when a controller directed a passenger jet and a business jet into converging
    courses—about 7 seconds from a midair collision when the pilots’ evasive actions
    averted an accident). Our investigation also confirmed as operational errors both of
2
  “Playback tools” are software programs and other electronic instruments for recreating air traffic incidents by
replaying recorded radar and voice data.
3
 Under FAA policy, operational errors are classified as low, moderate, or high severity per an index that assigns
each error a point total based on the proximity of the aircraft and their respective direction of flight, e.g.,
converging.

Report No. CC-2004-067
                                                                                                         3

    the                                                                 incidents
    Ms. Whiteman identified in her OSC filing—one classified as moderate severity,
    the other as low severity.

    Our findings at the DFW TRACON validate Ms. Whiteman’s concerns about cover-
    up. Whether operational errors are systematically ignored as a result of
    management policy—as occurred in this case, or covered-up on an incidental basis,
    such conditions represent a safety deficiency. Such cover-ups also undermine
    public confidence in the integrity of the nation’s air traffic control system.

    Due to the serious safety implications, operational errors have been the subject of
    increasing emphasis by our office. In a December 2000 audit, we found that
    operational errors may be underreported because of FAA’s reliance on controllers to
    self-report errors, and for the past five years, we have identified reporting and
    reducing operational errors as a top annual management challenge for the
    Department 4 .

    During our investigation of Ms. Whiteman’s allegations concerning the DFW
    TRACON, we completed a nationwide audit of controls over the reporting of
    operational errors. Significantly, our recent audit 5 found that FAA still relies on
    controllers to self-report suspected and actual operational errors. Further, we found
    that under current FAA policy, playback tools may only be used to investigate
    suspected operational errors and cannot be used to randomly audit radar and voice
    data.    As addressed in greater detail below, our audit report included
    recommendations for FAA to enhance—system-wide—its ability to identify and
    report operational errors, to include random audits of playback data. FAA
    concurred with our recommendations, but needs to articulate how it plans to
    implement them and identify timeframes for completion. You have instructed FAA
    to provide, by March 15, 2005, a detailed implementation plan for carrying out our
    audit recommendations.

    We have addressed our DFW TRACON investigative results with senior levels of
    FAA and believe corrective actions undertaken by the agency (detailed below)
    substantially address Ms. Whiteman’s concerns and represent considerable progress
    toward preventing future unreported operational errors at that facility. Also, from
    our investigation, we recommend that FAA, in its national policy directive, clarify
    that review of playback data is a required step in investigating suspected operational
    errors. As with FAA’s follow-through on our recent audit findings and
4
   Our Top Management Challenges Report, dated November 15, 2004, is provided in its entirety at:
http://www.oig.dot.gov/item_details.php?item=1434
5
  Our Report, Audit of Controls Over the Reporting of Operational Errors, dated September 20, 2004, is
provided in its entirety at: http://www.oig.dot.gov/item_details.php?item=1395

Report No. CC-2004-067
                                                                                                                       4

    recommendations, we will also review the extent to which FAA carries out its
    corrective actions at DFW.

    Recent OIG Audit

    Our audit of controls over the reporting of operational errors found that FAA still
    relies on controllers to self-report suspected and actual operational errors. In fact,
    only 20 of FAA’s 524 air traffic control facilities have an automated system to
    identify when operational errors occur. These 20 facilities with automatic detection
    systems are en route centers—which control only about one-fourth of air traffic
    operations 6 —yet in FY 2003, 684 operational errors were reported at these 20
    centers compared to 501 errors reported at all 504 TRACON and tower facilities.
    Given that en route centers control far less traffic than TRACONs and towers, it
    does not seem logical that en route facilities would have nearly 40 percent more
    operational errors.

    Further, our review of FAA data showed that 22 percent of the operational errors
    reported by TRACONs and towers in FY 2003 were initially identified as a result of
    reports from pilots, neighboring air traffic control facilities, and other outside
    sources (e.g., airport and airline personnel, hotline complaints). In contrast, only 4
    percent of operational errors reported by en route centers were identified by outside
    sources. These statistics, along with the results of our investigation at the DFW
    TRACON, show that FAA cannot rely on a system that is based on facility
    personnel self-reporting operational errors. FAA needs a procedure that will
    provide greater assurance that substantially all operational errors are being reported.

    Our audit found that while facilities such as TRACONs have playback tools readily
    available, current FAA policy authorizes use of playback tools only to investigate
    suspected operational errors, prohibiting their use without a triggering event or
    indication that an error has already occurred (i.e., a suspected occurrence). Our
    audit report included several recommendations for FAA to strengthen—system-
    wide—the identification and reporting of operational errors, as well as agency
    oversight of those processes:

    1. To promote the identification and reporting of all operational errors, FAA needs
       to rescind its policy provision limiting use of playback tools to investigation of
       suspected operational errors, and instead allow playback tools in conducting
       random audits of radar and voice data.



6
  En route centers control aircraft flying at higher altitudes and outside the immediate area of airports, where air
traffic is concentrated. TRACONs and towers control approximately three-fourths of all air traffic operations.

Report No. CC-2004-067
                                                                                            5

  2. Establish internal audit procedures that require facility quality assurance staff to
     periodically review voice and radar data to assess whether operational errors are
     being fully reported.

  3. Require FAA’s Air Traffic Office of Safety Evaluations (with staff assigned
     regionally and at headquarters) to review and test audit records at TRACONs
     and towers to ensure facility quality assurance personnel are in fact conducting
     periodic audits of playback data.

  FAA concurred with our audit recommendations and commissioned a workgroup
  within its Air Traffic Organization to develop specific means to implement the
  recommendations and ensure accurate and full reporting of operational errors
  system-wide. You have instructed FAA to provide, by March 15, 2005, a detailed
  implementation plan for carrying out our audit recommendations, including
  timeframes for completion. Upon issuance, we will review FAA’s plan for
  sufficiency and provide a follow-up assessment of the implementation of FAA’s
  stated actions.

  Corrective Actions Based on DFW TRACON Investigation

  Officials in FAA’s Air Traffic Office of Safety Evaluations (which participated in
  our investigation) considered the improper investigation and underreporting of
  operational errors at the DFW TRACON to be very serious, warranting prompt
  corrective action. Accordingly, following consultations with our staff, they initiated
  a number of remedial actions with Air Traffic management as findings developed
  during the course of the investigation.

  Foremost, the current DFW manager, who had been at the facility less than a year,
  was unfamiliar with how operational errors were being investigated. Following our
  interview of her, during which she learned of the TRACON’s improper method of
  investigating operational errors, she issued a policy memorandum to her staff, dated
  June 25, 2004, directing immediate use of playback tools to investigate all suspected
  operational errors. The result of this change is reflected in the following substantial
  increase in reported operational errors: Prior to our investigation, only 2
  operational errors were declared at the TRACON between January 1 and June 24,
  2004. After instituting appropriate use of playback tools on June 25, 2004, through
  December 2004, the TRACON reported 36 confirmed operational errors.

  Further, the Air Traffic Office of Safety Evaluations placed the DFW facility in a
  “no-notice review” status for a 2-year period, which means evaluations staff can
  show up at the facility unannounced to assess whether operational errors are being
  accurately reported. Other corrective actions taken include (a) reassignment of the

Report No. CC-2004-067
                                                                                                               6

    facility quality assurance manager (and selection of a new quality assurance
    manager); (b) the facility manager, along with operations managers and supervisors,
    were placed on performance improvement plans for not abiding by FAA national
    policy for investigating/reporting operational errors; (c) individual controllers were
    given remedial training for operational errors committed, and placed on
    performance improvement plans for failing to self-report errors; and (d) revision of
    the TRACON’s quality assurance order to remove the proscription against use of
    playback tools. In addition, one controller was decertified for having committed a
    previously unreported operational error.

    Additionally, FAA’s Air Traffic Office of Safety Evaluations reviewed the practices
    of other TRACONs and concluded that the DFW TRACON was unique in terms of
    how it investigated operational errors. However, to ensure that the conditions at
    DFW do not exist elsewhere, FAA has undertaken a complete review of all quality
    assurance elements nationwide.

    An additional finding of our investigation, meriting remedial action by FAA,
    concerns FAA’s national policy directive on operational errors, which prescribes
    investigation and reporting procedures. While FAA officials consistently told us
    that the policy requires review of playback data to investigate suspected operational
    errors, the language of this directive does not explicitly say so. In our view, the
    policy directive is ambiguous as to whether investigation of suspected errors
    actually requires use of playback tools. To avoid localized misinterpretations, we
    recommend that the directive (an FAA Order) be revised to clarify, explicitly, that
    review of playback data is a required step in investigating all suspected operational
    errors and in conducting audits.

    OSC Referral

    In her March 4, 2004, filing with OSC 7 , Ms. Whiteman asserted that for at least two
    years, the management of the DFW TRACON routinely covered-up operational
    errors and deviations by failing to investigate and report suspected occurrences, as
    required by FAA policy. Ms. Whiteman asserted that operational errors involving
    aircraft flying dangerously close to one-another occurred, on average, at least once
    per month at the TRACON, and many of these incidents were never declared
    operational errors. Ms. Whiteman included in her filing evidence of two specific
    incidents she maintained were non-investigated, and thus unreported, operational
    errors—one in March 2002, the other in February 2004. In both incidents, required
    minimum separation between aircraft was allegedly lost because controllers failed
    to properly coordinate their control actions.
7
 By statute, OSC has authority to refer to Federal agencies, for investigation, disclosures it receives from
Federal employees that implicate danger to public health or safety.

Report No. CC-2004-067
                                                                                          7


  She largely attributed the alleged cover-up of operational errors to an incentive
  program, instituted in 2002 by facility management, designed to reward controllers
  with time-off if their facility remained error-free for an entire quarter.

  Ms. Whiteman related that FAA headquarters had investigated prior complaints she
  made in 2002, via the FAA Administrator and OIG hotlines, that the TRACON
  failed to report several operational errors. She noted that she was told FAA
  headquarters did not substantiate her allegations and, as such, no action was taken.

  In her filing with OSC, Ms. Whiteman asserted that because of her efforts to expose
  this improper practice, she has been subjected to reprisal by her superiors and
  harassment by her co-workers. Since filing her complaint with OSC, in April 2004,
  FAA promoted Ms. Whiteman to the supervisory position of DFW Control Tower
  Supervisor. Notwithstanding, OSC, which has principal statutory responsibility for
  investigating whistleblower reprisal claims, has opened an investigation into
  Ms. Whiteman’s complaint of unlawful reprisal.

  FAA Policy on Operational Errors

  At TRACONs and towers, FAA relies on supervisors/managers and controllers to
  self-identify suspected operational errors because, unlike enroute control centers,
  there is no automated system to identify when operational errors occur. FAA policy
  concerning the investigation and reporting of operational errors/deviations is
  contained in FAA’s Order on Air Traffic Quality Assurance (FAA Order
  7210.56C).

  This Order prescribes that FAA employees aware of a potential operational error are
  to report the suspected operational error to a supervisor or controller-in-charge
  (CIC) for investigation. The Order authorizes use of “playback tools,” designed for
  the playback of recorded radar and voice data, that are “available to assist in
  investigations” of suspected operational errors by recreating events. (A technical
  description of playback tools is provided in Appendix A.) While FAA officials
  consistently told us that this Order requires review of playback data to investigate
  suspected operational errors, as addressed below, the language of the Order does not
  explicitly say so. In our view, the Order is ambiguous as to whether investigation of
  suspected errors actually requires use of playback tools.

  The Order specifies that an operational error be formally declared once
  investigation confirms that it in fact occurred. The Order prescribes a series of
  corrective actions to be taken by management, to include removing the responsible


Report No. CC-2004-067
                                                                                               8

     controller from radar duty, directing remedial training be accomplished, and prompt
     notification to Air Traffic headquarters.

     Further, under FAA policy, operational errors are classified as low, moderate, or
     high severity per an index that assigns each error a point total based on the
     proximity of the aircraft and their respective direction of flight, e.g., converging.
     An example from our recent audit is depicted in Figure 1 below. In this instance, an
     operational error occurred at a TRACON when a controller directed a passenger jet
     and a business jet into converging courses. The aircraft were about 7 seconds from
     a midair collision when the pilots’ evasive actions averted an accident. In assessing
     the severity of the controller’s operational error, FAA rated this incident at the high
     end of moderate severity.


                          Figure 1. Operational Error at a TRACON

                                                    Collision in
                                                     less than
                                                     7 seconds



                                              Airplanes came within
                                              100 feet vertically and
                     Business jet level       4,250 feet horizontally        Passenger jet
                       at 4,000 feet                                      climbing to 4,000
                                                    (0.7 miles)
                         259 mph                                                 feet
                                                                               311 mph




     Investigation Methodology

     We conducted our investigation with technical assistance from FAA’s headquarters-
     based Air Traffic Office of Safety Evaluations. In addition, a member of the OIG
     staff conducting this investigation was formerly an air traffic controller. Our
     methodology included the following steps:

     - Interviews with Ms. Whiteman.
     - Use of playback tools to randomly review radar data and voice recordings for air
       traffic operations between May and June 2004 8 .
     - Examination of prior incidents the facility found did not constitute operational
       errors, to include the February 2004 and March 2002 incidents
       Ms. Whiteman asserted in her complaint were, in fact, operational errors.


8
    FAA policy requires that electronic data recordings be retained for 45 days.

Report No. CC-2004-067
                                                                                        9

  - Interviews of current and former TRACON managers and quality assurance
    personnel.
  - Interviews of controllers and supervisors involved in unreported operational
    errors we identified during our review.

  Details

  1. Operational errors at the DFW TRACON were improperly investigated,
     resulting in underreporting

  • We found merit to Ms. Whiteman’s allegations concerning unreported
    operational errors, discovering a practice at the DFW TRACON wherein the
    former facility manager put in place his own policy, contrary to FAA-wide
    policy, that inhibited appropriate use of playback tools to investigate whether
    operational errors had occurred. In effect, the DFW TRACON employed an
    “honor system” approach to resolving suspected operational errors—one that, by
    design, excluded use of highly reliable playback tools to confirm whether
    suspected operational errors in fact occurred.

  • Instead, investigation of suspected operational errors at the TRACON entailed
    supervisors simply asking subject controllers whether aircraft separation had
    been lost. When a controller responded that he/she had maintained required
    separation, the incident was considered resolved with no further action taken. If
    a controller acknowledged that separation was, or might have been,
    compromised, playback tools would then—and only then—be used to determine
    if an operational error in fact occurred.

  • The underreporting of operational errors at the DFW TRACON is significantly
    demonstrated by the following difference in errors reported before and after our
    investigation commenced in June 2004.

      − Prior to our investigation, only 2 operational errors were declared at the
        TRACON during the 6 month period between January 1 and June 24, 2004.

      − After instituting appropriate use of playback tools on June 25, 2004, through
        December 2004, the TRACON reported 36 confirmed operational errors.

         While none of these 36 operational errors were classified as high severity,
         28 were rated moderate severity.




Report No. CC-2004-067
                                                                                            10

      − Through our own use of playback tools, we found 7 operational errors at the
        TRACON that were previously found by facility supervisors to be non-
        substantiated.

         These 7 operational errors consisted of the 2 incidents Ms. Whiteman alleged
         in her complaint, along with 5 others that occurred during the two-month
         period we reviewed. (Based on FAA’s data retention limitations, we were
         able to review 15 suspected operational errors occurring in May-June 2004,
         which the TRACON previously found unsubstantiated. Through our own use
         of playback tools, we determined that 5 of those 15 incidents were, in fact,
         operational errors.)

         6 of these 7 operational errors were classified as “moderate severity”, with the
         other classified as “low severity.”

         All 7 of these operational errors had been identified by TRACON personnel
         as suspected errors, but supervisors declared them unsubstantiated after the
         controllers involved asserted that separation had been maintained. A simple
         review of playback data (as we performed during our review) at the time of
         the incident would have conclusively established each of these as an
         operational error. Appendix B contains a detailed account of each of these 7
         operational errors.

  2. Several factors contributed to the TRACON’s lax investigation of suspected
     operational errors, but a short-lived incentive program was not material

  As addressed below, we found several factors contributing to the TRACON’s
  practice of improper investigation—and, thus, underreporting—of suspected
  operational errors.

  Former Manager’s Policy and Issuance of Written Directive

  • TRACON personnel we interviewed advised that in about 1997, then-facility
    manager Ross Schulke (who retired in January 2003) issued a verbal edict that
    suspected operational errors were to be investigated in the manner described
    above—with playback tools used only after a controller acknowledged that
    separation was, or may have been, lost. In October 2000, Mr. Schulke issued a
    written directive (DFW Order 7010.1) formalizing and reinforcing this
    restriction on the use of playback tools. It included the following proscription:
    “IN NO CASE shall [playback] data be used until an error is declared.”




Report No. CC-2004-067
                                                                                              11

  • Mr. Schulke made conflicting statements during our interview. He initially
    denied having instituted this practice, contending that he heard rumors of it
    when he became facility manager in 1996. He told us that when he became
    aware of the practice, he sought to eliminate it, but was unsuccessful in so doing.
    However, in a contradictory assertion, Mr. Schulke told us that FAA had an
    agreement with the National Air Traffic Controllers Association (NATCA) that
    playback tools would not be used unless, and until, an operational error had
    already been declared, following acknowledgement by a controller that an error
    had occurred. We found no such agreement with NATCA.

  • Several TRACON employees we interviewed advised that the TRACON’s
    policy on handling operational errors discouraged the reporting of operational
    errors. One operations supervisor told us, “It was common knowledge at the
    DFW to do everything not to report OEs. Do whatever we could to get out of an
    OE.” This supervisor related that Mr. Schulke told him, “Region does not want
    to hear this information; they don’t want OEs”, and that Mr. Schulke said his
    performance ratings as a manager were based upon the number of operational
    errors and employee grievances occurring at the facility.

      According to this operations supervisor, during one specific incident on
      September 19, 2000, a controller almost allowed one aircraft to fly into the side
      of another. He said that despite the controller’s claim that separation had been
      maintained, he decided to review the radar data and audio recordings,
      discovering multiple operational errors. This supervisor said that in listening to
      radio recordings, the pilot of one of the involved aircraft stated to the controller,
      “That was mighty close, what are you doing?”

      This operations supervisor told us that when he presented Mr. Schulke with the
      results of his review, Mr. Schulke “dressed me down in the hallway screaming
      and yelling.” He said Mr. Schulke told him they (DFW TRACON managers and
      supervisors) were not going to use playback tools to verify operational errors
      because it would “infuriate the union.” This supervisor advised that Mr.
      Schulke then demanded all the documents, tapes and personal notes regarding
      this incident, which Mr. Schulke proceeded to destroy.

      Mr. Schulke acknowledged during our interview that he once destroyed a report
      on a confirmed operational error submitted by one of his subordinate TRACON
      supervisors. According to Mr. Schulke, the operational error had been verified
      using a radar data playback device he believed was not approved under FAA’s
      agreement with NATCA. He further advised that since the data tape-recording
      had already been recycled in accordance with FAA’s data retention policy and


Report No. CC-2004-067
                                                                                         12

      thus could not be further reviewed, he decided that an operational error would
      not be declared.

  • We looked at the history of the TRACON Order restricting use of playback data
    for investigation of operational errors and found it was revised once, in
    September 2001, but without any change to the subject restriction on use of
    playback tools.

  Lack of Oversight by the TRACON’s Quality Assurance Unit

  • David Slaton, who until recently was Quality Assurance Manager for the
    TRACON, told us that the TRACON’s quality assurance staff was not involved
    in reviewing investigations of suspected operational errors conducted by facility
    supervisors. He advised that by virtue of facility quality assurance personnel
    (nationwide) becoming NATCA members, FAA would have to pay them
    overtime to conduct quality assurance reviews of suspected operational errors
    occurring outside their normal work hours. Mr. Slaton advised that Mr. Schulke
    did not want to pay overtime and directed that only supervisors investigate
    suspected operational errors, in accordance with Mr. Schulke’s investigative
    procedures.

  Missed Opportunities to Detect and Remedy the TRACON’s Improper
  Investigative Practice

  • As Ms. Whiteman noted in her correspondence to OSC, she previously
    contacted the FAA Administrator and OIG hotlines, in July and October 2002,
    to identify unreported operational errors at the TRACON; specifically, three
    separate incidents. We referred Ms. Whiteman’s complaints to FAA’s
    headquarters Air Traffic Office of Safety Evaluations for investigation. While
    substantiating two of these incidents as previously unreported operational errors,
    the FAA headquarters investigator examined them as discrete incidents and did
    not discover the TRACON’s systematic practice of improperly investigating
    operational errors.

  Insufficient Oversight by Current Manager

  • JoEllen Casilio, who became manager of the DFW TRACON in October 2003,
    told us she was unaware of the TRACON’s restriction on the use of playback
    tools and had not focused on the facility’s low incidence of reported errors.
    When we informed her of our findings, Ms. Casilio said she felt responsible for
    having not provided adequate oversight. Following our interview with her, she


Report No. CC-2004-067
                                                                                               13

      issued a policy memorandum to her staff, dated June 25, 2004, directing
      immediate use of playback tools to investigate all suspected operational errors.

  Incentive Program Was Not a Material Factor in Underreporting

  • Based in part on the foregoing findings, we concluded that an incentive program
    at the DFW TRACON, intended to reduce the number of operational errors, was
    not a significant factor in the non-reporting of operational errors. This program,
    designed to reward all facility controllers with 4 hours time-off if the facility
    went 90 days without experiencing an operational error, was initiated on a trial
    basis in January 2002 by FAA’s Southwest Region Air Traffic Division. The
    program resulted in one award to DFW TRACON controllers, in June 2002, but
    was abandoned after a one-year test period because the program’s goal of 90
    days error-free was deemed unrealistic.

  Ambiguity in FAA’s Air Traffic Quality Assurance Order

  • FAA’s Air Traffic Quality Assurance Order (7210.56C), which prescribes policy
    for the investigation and reporting of operational errors/deviations, is ambiguous
    as to whether investigation of suspected operational errors requires review of
    playback data. Specifically, section 5-1-3 of the Order, “Initial Investigations”
    states, in part:

           “The initial investigation is intended to be fact finding in nature. It has been
           designed to determine what occurred in the system, to ensure corrective
           action is initiated to maintain system integrity, and to report significant
           events to higher levels of management. . .

           . . . The operations supervisor or the controller-in-charge . . . shall determine
           the validity of suspected OE/OD’s and, if valid, shall ensure the following is
           accomplished:

               d. Review voice recordings . . .
               e. Review available radar data . . .”

      The wording “shall determine the validity . . . and if valid shall ensure the
      following” is, in our view, poorly constructed and subject to interpretation
      regarding whether these provisions (“d” and “e”) are required to be performed in
      the investigation of suspected operational errors.

      Further, while section 5-1-5 of the Order, “Investigative Process,” states that the
      “investigation of an OE/OD must entail an in-depth inquiry into all causal

Report No. CC-2004-067
                                                                                           14

      factors”, this section and Appendix 1 of the Order, regarding radar data, do not
      require use of playback tools. Specifically, Appendix 1 states that “playback
      tool[s] may be used in the investigation of a . . . suspected OE/OD . . . to
      determine the relative flight tracks, speeds, headings, location and separation of
      the involved aircraft. These tools may be used to determine employee and/or
      pilot performance and/or involvement in the incident, as well as the closest
      proximity.”

  3. FAA has undertaken corrective actions based on our investigative findings

  • Based on our findings, FAA’s Air Traffic Office of Safety Evaluations has
    undertaken a number of actions to remedy the deficiencies at the DFW
    TRACON. These include directing the facility manager to institute appropriate
    use of playback tools for investigating suspected operational errors and placing
    it in a “no-notice review” status for a two-year period, which means evaluations
    staff can show up at the facility unannounced to assess whether operational
    errors are being accurately reported.

      Other corrective actions taken include (a) reassignment of the facility quality
      assurance manager (and selection of a new quality assurance manager);
      (b) the facility manager, along with operations managers and supervisors, were
      placed on performance improvement plans for not abiding by FAA national
      policy for investigating/reporting operational errors; (c) individual controllers
      were given remedial training for operational errors committed, and placed on
      performance improvement plans for failing to self-report errors; and (d) revision
      of the TRACON’s quality assurance order to remove the proscription against use
      of playback tools. In addition, one controller was decertified for having
      committed a previously unreported operational error.

      Further, FAA’s Air Traffic Office of Safety Evaluations reviewed the practices
      of other TRACONs and concluded that the DFW TRACON was unique in terms
      of how it investigated operational errors. However, to ensure that the conditions
      at DFW do not exist elsewhere, FAA has undertaken a complete review of all
      quality assurance elements nationwide.

  • Ms. Whiteman expressed concern to us that some remedial actions were not
    being instituted by Ms. Casilio. Accordingly, we contacted FAA’s Air Traffic
    Office of Safety Evaluations and jointly conducted an on-site review at the
    TRACON, verifying that the stated corrective actions have been, or are being,
    implemented.

  Recommendation

Report No. CC-2004-067
                                                                                          15


  An additional finding of our investigation, meriting remedial action by FAA,
  concerns FAA’s national policy directive on operational errors, FAA Order
  7210.56C, which prescribes investigation and reporting procedures. While FAA
  officials consistently told us that this Order requires review of playback data to
  investigate suspected operational errors, the language of the Order does not
  explicitly say so. In our view, the Order is ambiguous as to whether investigation of
  suspected errors actually requires use of playback tools. To avoid localized
  misinterpretations, we recommend that FAA Order 7210.56C be revised to clarify,
  explicitly, that review of playback data is a required step in investigating all
  suspected operational errors.

  We have addressed our investigative results with senior levels of FAA and believe
  the agency’s corrective actions substantially address Ms. Whiteman’s concerns and
  represent considerable progress toward preventing future unreported operational
  errors at the DFW TRACON and elsewhere. As with FAA’s follow-through on our
  recent audit findings and recommendations, we will also review the extent to which
  FAA carries out the foregoing corrective actions at DFW.

  Attachment

                                          #




Report No. CC-2004-067
                                                                                            16


                           Appendix A – Playback Tools

“Playback tools” are software programs and other electronic instruments for recreating
air traffic incidents by replaying recorded radar and voice data. Playback tools are
used to investigate incidents or accidents, and can be used to determine the relative
flight tracks, speeds, headings, location and separation of the involved aircraft. These
tools may be used to determine controller and/or pilot performance and/or involvement
in the incident, as well as the aircraft’s closest proximity. Playback tools available to
assist in investigations of operational errors (OE) or operational deviations (OD)
include:

Continuous Data Recording (CDR) – This fundamental program providing
continuous recording of radar data from the Automated Radar Terminal System
(ARTS).

Radar-Audio Playback of Terminal Operations Recording (RAPTOR) – This
advanced program integrates CDR radar data and digital voice recordings for a
computerized playback of combined radar/voice data within requested time and
airspace parameters.

National Track Analysis Program (NTAP) – This program, which provides a
computer-generated track of aircraft, was originally designed to assist in search and
rescue missions to locate missing or suspected downed aircraft.

Systematic Air Traffic Operations Research Initiative (SATORI) – This program
uses NTAP reports to graphically recreate ATC incidents on a computer screen.




Report No. CC-2004-067
                                                                                                                       17

                              Appendix B - Verified Operational Errors

      A joint review by OIG and FAA’s Air Traffic Office of Safety Evaluations
      produced evidence to confirm the following operational errors:

      Note: The first two operational errors, both verified during our review, were
            included in Ms. Whiteman’s complaint.

      1) March 24, 2002

          Ms. Whiteman provided the OSC two plots with corresponding radar data and
          audio tapes for March 24, 2002, which she acquired through a FOIA request. A
          review of those plots and audio tapes disclosed that N160W 9 and EGF654 were
          both approaching Meacham Field from the Northeast. The pilot of N160W did
          not appear to turn westbound at a pre-designated point required in the
          procedures for the landing pattern in use at the time.

          These aircraft, essentially flying the same route one mile in trail of each other,
          were being controlled by separate controllers. Both controllers were found to
          have been working separate aircraft in the same airspace without proper
          coordination when the loss of separation occurred. These aircraft closed to
          within 500 feet elevation and .43 miles laterally of one another. This was
          classified, per FAA guidelines, as moderate severity 10 .

      2) February 29, 2004

          A review of this incident, provided by Ms. Whiteman, showed that on February
          29, 2004, in accordance with the instructions of the ATC, EGF712 began
          descending toward 5000 feet. At the same time N2099D, which had just
          departed DFW, was climbing northbound to 4000 feet. The controller
          responsible for N2099D advised him of the presence of EGF712 and the pilot
          reported that he had EGF712 in sight. EGF712 descended past 5000 feet toward
          4000 feet. The controller for N2009D directed the pilot to maintain visual
          separation. EGF712 and N2009D approached to within 100 feet elevation and
          1.61 miles horizontally. Moreover, our review of the audio tapes revealed that

9
     Aircraft are identified throughout this report by their call signs as reflected on the FAA documents.
10
   FAA Air Traffic Order 7210.56C establishes a severity index to determine the severity of an operational error
based on the proximity of the aircraft and their respective direction of flight, i.e., in trail, converging, and the
facility involved, i.e., tower facility, enroute center, or TRACON. Based upon the total points the operational
error will then be given a severity rating of; high—90 points and above, moderate—40-89 points, and low—39
points and below.


Report No. CC-2004-067
                                                                                                                  18

       the controller responsible for EGF712 had given the pilot instructions to descend
       to 4000 feet, vice the 5000 feet reported. (The authorized altitude was 5000
       feet.) This incident was classified as low severity.

       Operations Manager Ronald Hathcock investigated the suspected loss of
       separation which occurred on February 29, 2004. Despite having the audio data,
       Mr. Hathcock terminated the investigation when he was unable to retrieve the
       CDR data. Mr. Hathcock further admitted that while he had the X and Y
       coordinates of the involved aircraft, and that those coordinates could have been
       plotted to obtain the separation intervals, he did not possess the knowledge
       required to manually plot separation of the aircrafts. This incident was classified
       by Mr. Hathcock as a non-occurrence.

     3) May 17, 2004

       On May 17, 2004, the ATC controlling CHQ6355 received a Traffic Alert &
       Collision Avoidance System/ Resolution Advisory 11 [TCAS RA] on AAL2076,
       which was controlled by another ATC. The controller for AAL2076 claimed he
       gave instruction to the pilot to diverge from CHQ6355. The pilot of flight
       CHQ6355 reported AAL2076 was in sight after the TCAS RA and was
       instructed to maintain visual separation. Both controllers reported to the
       supervisor conducting the inquiry that there was no loss of separation.

       When we confronted Robert Beck, the on-duty Operations Supervisor
       concerning his investigation of this incident, he reported that subsequent to
       learning of the TCAS RA, he briefed John P. Jones, the on-duty Operations
       Manager, and requested the voice recordings and CDR data/plots for his review.
       Mr. Jones told us he directed Mr. Beck to interview the controller(s) first and
       ascertain what had occurred and reminded him (Mr. Beck) that unless a loss of
       separation was reported, CDR data was not authorized to be used to search for
       an error 12 . Accordingly, after both controllers asserted that there had not been a
       loss of separation, the inquiry was terminated.

       Our review of the CDR data and audio transmission for this incident revealed
       that AAL2076 was vectored northbound at 6,000 feet on a downwind approach
       for the ILS Runway 17C, and was handed off to another controller for arrival.

11
   TCAS alert is an airborne collision avoidance system based on radar beacon signals which operates
independent of ground based equipment.
12
   FAA Order 7210.56C Appendix 1 (1)(c) states, “.. CDR data and other reduction or playback tools shall not
be arbitrarily used as the primary initiating source (triggering event) for reporting an OE/OD or commencing an
investigation. However, these reduction/playback tools may be used in the investigation of suspected incidents
to determine the amount of separation that existed or the position of the aircraft.”

Report No. CC-2004-067
                                                                                          19

      At the same time, CHQ6355 was on the base leg to approach the same runway
      and was descending to 6,000 feet. CHQ6355 reported a TCAS Resolution
      Advisory, and was issued instructions to turn to avoid AAL2076. CHQ6355
      reported AAL2076 in sight, and was instructed to maintain visual separation.
      These aircraft approached to within 800 feet elevation and 1.36 miles laterally.
      This incident was classified as moderate severity.

  4-5) May 17, 2004

      During a review of the CDR data tapes, in relation to the above incident, two
      additional operational errors were identified:

      (1) AMT217 was flying southwest approaching DFW at 6,000 feet. CHQ6355
      was also at 6,000 feet and flying southwest on a converging heading with
      AMT217. Turns and altitude restrictions were issued to both aircraft, but not
      before they closed to within 200 feet vertically and 2.06 miles laterally of one
      another.

      (2) AMT217 was flying southwest inbound to DFW and was descending to
      avoid CHQ6355, causing AMT217 to close to within 600 feet elevation and 2.57
      miles laterally of AAL2076, who was northbound and descending on the
      downwind for the ILS Runway 17C. Both incidents were classified as moderate
      severity.

  6) June 8, 2004

      On June 8, 2004, AAL453 was west bound, being vectored for an ILS approach
      to Runway 17L, and was descending, per controller instructions, to 4000 feet.
      AAL453 was subsequently turned to a heading of 190 degrees and was
      instructed to join the Runway 17L localizer. However, this turn instruction to
      AAL453 was issued too late, and AAL453 overshot the final approach course.
      AAL453 was subsequently issued an additional instruction turn to 150 degrees
      to rejoin the localizer; however, not until separation had been lost with
      AAL1303, who was also inbound to DFW and flying at 4000 feet. The aircraft
      closed to within 0 feet elevation and 1.84 miles laterally. This incident was
      classified as moderate severity.

      An inquiry into this incident by the on-duty Operations Supervisor, Bill Seiling,
      was closed as a non-incident after both controllers reported maintaining proper
      separation. CDR data and audio transmissions were not reviewed.




Report No. CC-2004-067
                                                                                           20

  7) June 26, 2004

      On June 26, 2004, during the time our inquiry was being conducted at DFW,
      flight N888XL departed from Dallas Love Field and initially headed northeast.
      The pilot was subsequently issued instructions to turn on course towards the
      southwest climbing to 16,000 feet. Around the same time flight SKW3762
      departed from Dallas/Fort Worth airport heading northeast subsequently turning
      northwest per instructions from the air traffic controller and climbing to 17,000
      feet, which activated a conflict alert alarm. SKW3762 was then issued
      instruction to turn to the east, but not before the two aircraft approached to
      within 700 feet elevation and 1.74 miles laterally of one another. Despite the
      presence of OIG and FAA Air Traffic investigators, DFW TRACON personnel
      failed to document and report this operational error. This incident was classified
      as moderate severity.

  An additional incident, on December 2, 2002, reported by Ms. Whiteman and
  allegedly involving an encroachment of her airspace by an aircraft controlled by
  another controller, was reviewed. This incident could not be positively identified as
  an operational deviation due to the lack of supporting data.

                                           #




Report No. CC-2004-067
